                                                            NATIONAL SCIENCE FOUNDATION
                                                             OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

     Case Number: 1-05-01-0008                                                                                   Page 1 of 1
 L




           In July 2004, the Office of Inspector General initiated a proactive review of participant support
           funds1 allocated to NSF awards. Participant support funds are restricted to specific uses and
           cannot be reallocated without prior written approval fiom NSF. During the course of this review,
           OIG randomly selected this award2 for review.

          The institution3provided OIG with its financial documents for this award, which revealed
          $57,443.17 in undocumented participant support. The institution requested a retroactive
          reallocation of participant support funds, which was subsequently denied by the program ~ f f i c e r . ~

          When OIG asked the institution how they intended to resolve the undocumented participant
          support, the institution respohded by sending NSF a check for $57,443.17. The institution also
          certified that no federal funds were used to pay back NSF.


11         In light of the above, no further investigative effort is necessary in this matter.

          Accordingly, this case is closed.




           ' Participant support costs are expended to or on the behalf of participants or trainees (but not employees) for
                                                                              ~ ~ ~ o s i andlor
                                                                                          u m s workshops.




 NSF 01G Form 2 (1 1/02)
